<html>
<title> - U.S. CENSUS BUREAU: ADDRESSING DATA COLLECTION VULNERABILITIES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
     U.S. CENSUS BUREAU: ADDRESSING DATA COLLECTION VULNERABILITIES

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    US POSTAL SERVICE AND THE CENSUS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2014

                               __________

                           Serial No. 113-146

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
      
                                   ______

                     U.S. GOVERNMENT PRINTING OFFICE 

91-127 PDF                   WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 TONY CARDENAS, California
THOMAS MASSIE, Kentucky              STEVEN A. HORSFORD, Nevada
DOUG COLLINS, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
MARK MEADOWS, North Carolina         Vacancy
KERRY L. BENTIVOLIO, Michigan
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

 Subcommittee on Federal Workforce, U.S. Postal Service and the Census

                   BLAKE FARENTHOLD, Texas, Chairman
TIM WALBERG, Michigan                STEPHEN F. LYNCH, Massachusetts, 
TREY GOWDY, South Carolina               Ranking Minority Member
DOUG COLLINS, Georgia                ELEANOR HOLMES NORTON, District of 
RON DeSANTIS, Florida                    Columbia
                                     WM. LACY CLAY, Missouri
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 18, 2014...............................     1

                               WITNESSES

The Hon. Erik Paulsen, a Member of Congress, from the state of 
  Minnesota
    Written Statement............................................     6
The Hon. John H. Thompson, Director, U.S. Census Bureau
    Oral Statement...............................................    11
    Written Statement............................................    13
The Hon. Todd Zinser, Inspector General, U.S. Department of 
  Commerce
    Oral Statement...............................................    18
    Written Statement............................................    20

                                APPENDIX

The Hon. Elijah Cummings, Member of Congress from the State of 
  Maryland, Opening Statement....................................    44
House Committee on Oversight and Government Reform, U.S. Congress 
  Joint Economic Committee Staff Report..........................    49


     U.S. CENSUS BUREAU: ADDRESSING DATA COLLECTION VULNERABILITIES

                              ----------                              


                     Thursday, September 18, 2014,

                  House of Representatives,
    Subcommittee on Federal Workforce, U.S. Postal 
                            Service and The Census,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:35 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Lynch, and Clay.
    Also Present: Representative Paulsen.
    Staff Present: Alexa Armstrong, Majority Legislative 
Assistant; John Cuaderes, Majority Deputy Staff Director; 
Jessica L. Donlon, Majority Senior Counsel; Jeffrey Post, 
Majority Senior Professional Staff Member; Jonathan J. 
Skladany, Majority Deputy General Counsel; Sarah Vance, 
Majority Assistant Clerk; Jaron Bourke, Minority Administrative 
Director; Marianna Boyd, Minority Counsel; Aryele Bradford, 
Minority Press Secretary; Juan McCullum, Minority Clerk; and 
Mark Stephenson, Minority Director of Legislation.
    Mr. Farenthold. The Subcommittee on the Federal Workforce, 
U.S. Postal Service and Census will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee mission statement. That is how we start out all of 
our meetings.
    We exist to secure two fundamental principles: first, 
Americans have a right to know that the money Washington takes 
from them is well spent and, second, Americans deserve an 
efficient, effective Government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights. Our solemn responsibility is to hold Government 
accountable to taxpayers, because taxpayers have a right to 
know what they get from their Government. We will work 
tirelessly in partnership with citizen watchdogs to deliver the 
facts to the American people and bring genuine reform to the 
Federal bureaucracy. This is the mission of the Oversight and 
Government Reform Committee.
    At this point I will recognize myself for an opening 
statement.
    In addition to its namesake activity, the Census Bureau 
conducts a number of monthly surveys for the Federal 
Government. Perhaps the most important among them is the 
Consumer Population Survey used to calculate the national 
unemployment rate, one of our most important economic 
indicators. The collection of this data is critical to both 
Main Street and Wall Street, and ensuring its timeliness and 
accuracy is the responsibility of the Census Bureau.
    Unfortunately, in November of last year, we heard 
allegations that senior officials in the Bureau's Philadelphia 
Regional Office were instructing field workers to falsify 
survey responses. After hearing these allegations, the 
Oversight and Government Reform Committee and the Joint 
Economic Committee launched a joint investigation. Our 
investigation found that data falsification did occur, but, 
fortunately, there was no evidence that this falsification was 
pervasive or systemic.
    I want to be clear on this. The committee found no evidence 
that the falsification was on an order of magnitude close 
enough to affect the national unemployment rate numbers. Nor, 
thank goodness, was there any evidence of a systemic plot in 
support of some grand political scheme.
    However, we did find substantial problems in the Bureau's 
data collection and review process, problems that unfortunately 
create a very real incentive for managers to overlook or even 
possibly encourage data falsification by field staff. The 
Bureau needs to take swift corrective action and measures to 
address these vulnerabilities.
    Data integrity is mission-critical to the Bureau, the 
Government, and America as a whole. Even the appearance of 
impropriety or inappropriate activities or lingering questions 
about the trustworthiness of Census Bureau data is 
unacceptable. As the Nation's, if not the world's, preeminent 
statistical agency, the Census Bureau's methods must be above 
reproach.
    The committee staff report released earlier today, in 
partnership with the Joint Economic Committee's majority staff, 
identified a number of flaws and provided recommendations that 
would address these concerns. Chief among the findings was the 
data review process does little to discourage data 
falsification. Namely, supervisors who assign work are also 
responsible for reviewing data quality, and they are paid on 
the basis of completion, speed, and response rate of the 
surveys that are worked on. This creates unacceptable incentive 
for unscrupulous managers to ask field staff to falsify data 
with the promise a manager will cover for the falsification. If 
successful, this scheme would improve alleged response rates 
and allow workers to complete surveys faster, though with 
little basis in reality.
    Under the current system, the people responsible for 
maximizing response rates are the same folks responsible for 
maintaining data quality. They are expected to do a job with 
two conflicting objectives. That is not good policy and not 
good management. Obviously, most Census workers and managers 
are doing the right thing; they are fulfilling their commitment 
to data quality. But we cannot expect every one of them to do 
the right thing when policies and procedures incentivize doing 
something else, or at least turning a blind eye to it.
    Quality control needs to be outside the chain of command. 
As our friends of the Inspector General's Office pointed out in 
their report, the Bureau does things differently for the 
Decennial Census. They have a separate unit responsible for 
quality control. That is logical. That is good policy and that 
is good management. It makes sense and that should be the 
policy for all surveys.
    Census Bureau practices also bring into question just how 
committee the Bureau is to committing data falsification. Its 
employee training barely makes mention of it. They still rely 
on carbon paper-based forms to track suspected falsification. I 
hadn't seen one of these for a while. Apparently they still 
exist. They also have some issues with disparate computer 
operating systems that don't interchange data well. The Census 
Bureau needs to send a very clear message that it is serious 
about the quality of its data and the integrity of the census.
    It is my sincere hope that today Director Thompson will be 
able to talk about the ways the Census Bureau is actively 
taking steps to address data integrity and other concerns 
raised by this subcommittee and the inspector general.
    At this point, I yield to Mr. Lynch, the ranking member.
    Mr. Farenthold. Actually, before we start, Mr. Lynch, if 
you will indulge me.
    Mr. Lynch. Sure.
    Mr. Farenthold. I would like to ask unanimous consent that 
our colleague from Minnesota, Mr. Paulsen, be allowed to 
participate in this hearing.
    Without objection, so ordered.
    Mr. Lynch?
    Mr. Lynch. Thank you. Thank you, Mr. Chairman. I would like 
to thank you for holding this hearing to examine the Census 
Bureau's data collection and quality assurance procedures for 
the Current Population Survey.
    I would also like to thank our witnesses for being here 
today to discuss the findings and recommendations issued by the 
Department of Commerce Office of the Inspector General and the 
progress of the Census Bureau in implementing these 
recommendations.
    Over the past year, as you have noted, Mr. Chairman, there 
have been a number of allegations made against employees within 
the Census Bureau. A November 2013 New York Post article made 
several of these allegations publicly. And as the chairman has 
noted, these allegations were thoroughly investigated by the 
Department of Commerce Office of the Inspector General and were 
found to be without merit. I would note that the inspector 
general, Todd Zinser, was appointed by President George W. Bush 
in December of 2007 and is with us here today.
    In particular, after reviewing over 3,000 pages of 
documents and conducting more than 100 interviews of former and 
current Census Bureau employees, the Inspector General's Office 
issued its final investigative report in May 2014, which was 
appropriately entitled ``Unsubstantiated Allegations that the 
Philadelphia Regional Office Manipulated the Unemployment 
Survey Leading Up to the 2012 Presidential Election to Cause a 
Decrease in the National Unemployment Rate.''
    This report, ``found no evidence that the management in the 
Philadelphia Regional Office instructed staff to falsify data 
at any time or for any reason.'' The inspector general also 
found, ``no evidence of systemic data falsification in the 
Philadelphia Regional Office.'' Again, another finding, they 
found no evidence that the national unemployment rate was 
manipulated by staff in the Philadelphia Regional Office in the 
months leading up to the 2012 presidential election.
    The inspector general's report further determined that in 
order to manipulate the unemployment rate, ``it would have 
taken at least 78 Census Bureau field representatives working 
together in a coordinated way to report each and every 
unemployed person included in that sample as employed or not in 
the labor force during September 2012.'' The report adds that 
this effort likely would have been detected by the Census 
Bureau's quality assurance procedures.
    The inspector general also found that the decline in the 
unemployment rate was consistent with other indicators such as 
the payroll estimates by Automatic Data Processing and Moody's 
Analytics.
    So, in any case, if anyone is keeping score, the New York 
Post allegations were determined by the inspector general to be 
100 percent false.
    Moreover, the inspector general has also reviewed the 
Bureau's data collection and quality assurance procedures, and 
issued several recommendations to the Bureau to protect against 
data falsification. I think it is important to recognize that 
the Bureau agrees with these recommendations based on Director 
Thompson's testimony. The Bureau has already adopted two of the 
inspector general's recommendations and is currently working to 
implement the other four recommendations, and I look forward to 
hearing the details surrounding each of those recommendations.
    Thank you, Mr. Chairman, and I yield back my time.
    Mr. Farenthold. Thank you very much.
    I believe Mr. Paulsen has an opening statement as well. You 
are recognized for five minutes, sir.
    Mr. Paulsen. Thank you, Chairman Farenthold. My comments 
come in relation to the Joint Economic Committee's interest on 
this issue, so I will address the comments to Chairman Issa, 
Subcommittee Chairman Farenthold, Ranking Member Cummings, and 
Subcommittee Ranking Member Lynch.
    Thank you for inviting me to participate in today's hearing 
on behalf for the Joint Economic Committee. The Joint Economic 
Committee has a vital interest in the accuracy, relevancy, and 
timeliness of U.S. economic statistics. The Census Bureau 
produces many economic statistics, including monthly statistics 
on U.S. international trade in goods and services, 
manufacturing sales and inventory, and construction. The Census 
Bureau also collects the data used to calculate other economic 
statistics such as the gross domestic product by the Bureau of 
Economic Analysis and the unemployment and labor force 
participation rates by Bureau of Labor Statistics.
    Congress uses these statistics to make decisions about 
Federal spending and taxes. Both corporate executives and small 
entrepreneurs use these statistics to decide whether to open a 
new store, build a new factory, or hire more workers. Families 
uses these statistics to decide where to buy a new house or how 
to invest their retirement funds.
    Since so much of economic decision-making relies on 
statistics produced by the Census Bureau or based on data 
collected by the Census Bureau, allegations that the underlying 
data may have been falsified, and thus the economic statistics 
based on such data may be inaccurate, are deeply troubling and 
deserve congressional scrutiny. That is why the Joint Economic 
Committee joined with the Committee on Oversight and Government 
Reform to investigate the allegations published in The New York 
Post on November 18th, 2013, that a Census Bureau employee may 
have falsified responses to the Current Population Survey used 
to calculate the unemployment rate, the labor force 
participation rates, and other employment statistics prior to 
the 2012 presidential election.
    While this investigation did find serious structural 
problems and systemic deficiencies with the Census Bureau's 
data collection processes, especially with respect to the 
Bureau's ability to detect data falsification, we found no 
evidence that falsification occurred with the intent to 
manipulate the U.S. economic statistics, nor was falsification 
sufficiently widespread to question the validity of the 
statistics generated from the Census Population Survey.
    The staff report makes five important recommendations to 
assure the integrity of data collection. Checks must be put 
into place to prevent any conflict of interest between 
achieving a high survey response rate and reporting incidences 
of data falsification. Specifically, clear procedures should be 
established for staff at any level to report potential 
falsification, and the re-interview process, which helps to 
identify incidences of potential falsification, should be 
independent of the chain of command. While achieving a high 
response rate is important, it should not trump the integrity 
of the data collected. Implementation of these recommendations 
would encourage Census employees to report any suspected 
falsification and would help Census managers to detect and 
correct any fraud.
    Two other recommendations specifically address the accuracy 
and effectiveness of the Bureau's record-keeping. First, though 
some improvements have been made to case tracking systems, the 
Bureau could do more to ensure that all notes and files 
associated with a case are tracked. Second, the current paper 
form used for reporting suspected falsification must be made 
electronic and tracked such that employees suspected of 
falsification receive a timely and just investigation into the 
matter. These particular recommendations would serve to 
increase transparency and accountability within the collection 
process.
    Then, finally, Census Bureau and the Department of Commerce 
should indeed improve their responsiveness to congressional 
oversight. The Census Bureau has subsequently taken some steps 
to ensure data quality, but real deficiencies remain. I urge 
the Census Bureau to implement all of them promptly, and I am 
interested in learning of any current or future plans from the 
Census to improve data collection and quality control 
procedures. America does rely on economic statistics produced 
from Census data. The accuracy of these statistics must be 
beyond reproach.
    I yield back, Mr. Chairman.
    [Prepared statement of Mr. Paulsen follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Farenthold. Thank you very much.
    Other members will have seven days to submit their opening 
statements for the record.
    We will now recognize our panel.
    The Honorable John Thompson is Director of the United 
States Census Bureau and the Honorable Todd Zinser is Inspector 
General for the U.S. Department of Commerce.
    Welcome, gentlemen.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. Would you all please rise and raise your 
right hand?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witnesses respond in the affirmative.]
    Mr. Farenthold. Let the record reflect both witnesses 
answered in the affirmative.
    Thank you all. You may be seated.
    In order to allow time for discussion and questions, we ask 
that you hold your testimony to as close to five minutes as 
possible. Your entire written statements will be made part of 
the record. In order to abide by the five second rule, you all 
have timers in front of you. The green light means you are good 
to go; the yellow light means about a minute left; the red 
light means stop as soon as you can get to a reasonable place 
to do so.
    So we will start with you, Mr. Thompson. You are recognized 
for five minutes.
    Mr. Farenthold.

                       WITNESS STATEMENTS

          STATEMENT OF THE HONORABLE JOHN H. THOMPSON

    Mr. Thompson. Good afternoon. On behalf of the U.S. Census 
Bureau, thank you, Chairman Farenthold, Ranking Member Lynch, 
and the subcommittee for inviting me today. I appreciate your 
ongoing support of the Census Bureau and I am pleased to be 
able to tell you about our data collection and data integrity 
efforts.
    In my 27 years as a civil servant at the Census Bureau and 
in the year since I was appointed Director, I have come to be 
extremely proud of our agency and its employees. They are 
dedicated, qualified, and mission-focused public servants who 
provide an invaluable service to the American people. Thanks to 
them, the Census Bureau is one of the Federal Government's 
foremost sources of quality statistics, and I am extremely 
proud to lead it.
    The Census Bureau emphasizes integrity in every one of our 
data collection efforts. This is true of perhaps our best known 
activity, the Decennial Census; it is true of the Economic 
Census, which we conduct every five years; and of the American 
Community Survey, the Nation's premier source of community and 
neighborhood level data. It is also true of the Current 
Population Survey, which I will discuss today.
    The Current Population Survey, or CPS, is administered by 
Census Bureau field representatives. The typical field 
representative works part-time and earns about $15 an hour. 
Their average age is 57, and many of them work for the Census 
Bureau to supplement their retirement or other income. They are 
members of their local communities and they are the face of the 
Census Bureau to every home they visit, and, as such, we hold 
them to high standards of performance, professionalism, and 
courtesy.
    Recently, the Department of Commerce's Office of the 
Inspector General, or OIG, investigated an alleged data 
falsification in the CPS. This matter was immediately referred 
to the OIG. After months of investigation and more than 100 
interviews with current and former staff, and as you will hear 
shortly, the OIG concluded that these claims were 
unsubstantiated. They found no evidence that the Census Bureau 
management had instructed field representatives to falsify or 
manipulate data.
    As part of their review, the OIG also evaluated the 
procedures that we use to detect falsification and made six 
recommendations for improvement. The Census Bureau 
wholeheartedly agrees that these suggestions will further 
strengthen our data integrity. We have already put three of the 
recommendations into practice and are implementing the other 
three.
    For example, we now immediately suspend work assignments to 
field representatives who are suspected of falsifying data 
unless and until they are cleared by an internal investigation. 
We have implemented the Unified Tracking System, or UTS. It 
provides a view of near real-time cost, progress, and response 
data, consolidating data from other production systems and over 
time and across surveys. This is a powerful tool for monitoring 
employee performance and detecting anomalies that may indicate 
falsification.
    In addition to the UTS, we maintain detailed keystroke data 
which can also be used to investigate falsification. We 
generate UTS reports that field managers use to monitor the 
quality of our interviewers' work. We have updated and will 
continue to update our training materials, and we are 
automating the process for reporting falsification, known as 
the Form 11-163.
    We have improved how we monitor and limit field 
representatives' workloads to avoid circumstances that might 
encourage shortcuts such as data falsification. We are 
improving our quality control process so that data collection 
re-interviews are now independent from the chain of command, 
and we are on our way to centralizing these efforts. Finally, 
we are sending regular reports to all of our survey sponsors, 
such as the Bureau of Labor Statistics in the case of the CPS.
    I also want to assure the members of the subcommittee that 
all field representatives receive guidance on reporting 
improprieties, including data falsification. New employees 
complete a training that includes how to report fraud, waste, 
and abuse to the Office of the Inspector General and also 
receive an administrative manual that includes a specific 
section with specific instructions about reporting fraud, 
waste, and abuse to the Office of the Inspector General, and 
this manual also includes the hotline number and a link to the 
Web site.
    At the Census Bureau, we welcome scrutiny and oversight of 
our work. I sincerely appreciate the OIG's suggestions. They 
are a clear, practical roadmap for improvement and they will 
help the Census Bureau build on its already excellent work.
    Thank you for this opportunity to address you. I look 
forward to your questions.

    [Prepared statement of Mr. Thompson follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Farenthold. Thank you very much, Mr. Thompson.
    Inspector General Zinser, you are up.

             STATEMENT OF THE HONORABLE TODD ZINSER

    Mr. Zinser. Thank you, Mr. Farenthold, Ranking Member 
Lynch, Mr. Clay, and members of the subcommittee. We appreciate 
the opportunity to testify today on vulnerabilities on Census 
data collection and quality assurance processes.
    As you and Director Thompson have noted, one of the many 
surveys the Census Bureau conducts throughout the year is the 
monthly Current Population Survey, also referred to as CPS. 
Earlier this year, on May 1st, my office publicly issued a 
report of investigation concerning allegations that the Census 
Bureau's Philadelphia Regional Office engaged in widespread 
falsification of CPS surveys, including the manipulation of the 
CPS unemployment rate in the months leading up to the 2012 
presidential election. My written statement summarizes the 
allegations concerning the Philadelphia Regional Office and the 
results of our investigation, observations we made related to 
Census Bureau falsification policies, and recommendations 
stemming from our investigation.
    The key allegations we investigated concerning the 
Philadelphia Office included: number one, were Census field 
representatives instructed by their supervisors to falsify 
data; two, did members of management alter completed surveys to 
manipulate data; and, three, did any alleged data falsification 
of the CPS in August and September of 2012 have a measurable 
impact on the unemployment rate leading up to the 2012 
presidential election.
    We conducted over 100 interviews of current and former 
Census Bureau employees in the Philadelphia Regional Office, 
Headquarters, and other regional offices. We reviewed training 
materials, interviewing procedures, quality control processes, 
and performance assessments. We also conducted extensive 
analysis of Census CPS data and BLS employment statistics data, 
as well as other data relevant to our investigation.
    While our investigation did not substantiate these 
allegations, we did identify several vulnerabilities with 
respect to the Census Bureau policies and processes and made a 
series of recommendations. We made the following four 
observations: one, survey supervisors do not consistently use 
the tools available to them for detecting and preventing data 
falsification; two, field representatives suspected of 
falsifying data are sometimes allowed to continue conducting 
surveys while the matter is under investigation, there is not a 
consistent practice across offices; three, the regional office 
quality assurance process creates the potential for a conflict 
of interest because the same supervisors who manage staff and 
could direct the falsification of survey data are responsible 
for reporting instances when their staff falsifies data; and, 
four, CPS procedural manuals and training materials are 
outdated, inconsistent, and do not discuss the serious 
consequences of falsification.
    We made the following six recommendations: one, implement a 
formal policy that prohibits employees suspected of 
falsification from collecting survey data during the 
investigative process; two, update procedural manuals and 
training materials to inform field representatives about the 
consequences of committing falsification; three, implement an 
independent quality assurance process for all survey operations 
similar to the one used during Decennial Census operations; 
four, ensure that all survey supervisors are properly using all 
available tools to safeguard against falsification of survey 
data; five, implement internal controls to effectively monitor 
and limit field representative workloads in order to reduce the 
risk of falsification; and, six, implement a reporting 
mechanism for confirmed data falsifications to those 
organizations that sponsor Census Bureau surveys.
    As noted by Director Thompson, the Census Bureau agreed 
with our findings and is in the process of implementing our 
recommendations.
    Thank you again for the opportunity to testify, and I would 
be happy to answer any questions you or other members of the 
subcommittee may have.
    [Prepared statement of Mr. Zinser follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Farenthold. Thank you very much. You mentioned your 
investigative report. I have it here. I would like to enter it 
into the record. Without objection, so ordered.
    This report can be found at: http://www.cig.doc.gov/
OIGPublications/14-0073.pdf
    Mr. Farenthold. It is good to actually be holding a hearing 
in this committee where we find out the situation isn't as bad 
as we initially thought. Unfortunately, in some of our other 
hearings it turns out the situation is worse than we initially 
thought. So this is actually a happy occasion for me to be 
chairing this subcommittee hearing where, yes, there are 
problems, but it is not as bad as we thought.
    Mr. Thompson, I would like to start with you for a second. 
I think a lot of the issues that we saw in the VA and I think 
we see in some areas of the Government is what the culture is 
within the organization. You all testified that you do have 
training materials early on for your new recruits to talk about 
the issues with data falsification and how to report it. 
Typically, how long is a new hire trained?
    Mr. Thompson. Congressman, I will have to get back to you 
on that.
    Mr. Farenthold. My concern is, is the data falsification 
five minutes in a two-day training or is it something that is 
pervasive throughout the training? That is what I am trying to 
get at.
    Mr. Thompson. Okay, so we have revised our training to 
emphasize data integrity. In fact, we are implementing a form 
that each interviewer will sign, and they will re-sign it every 
year, that explains to them the importance of data integrity 
and the dangers in falsifying data.
    Mr. Farenthold. And what are the consequences to an 
employee caught falsifying data?
    Mr. Thompson. It is a fireable offense.
    Mr. Farenthold. Okay. That is good to hear.
    Now, you talk about your UTS system, your Unified Tracking 
System. It is my understanding that that tracks who assigns 
what and who completes what cases. But there are actually three 
other systems, the Blaze File, which is the actual survey 
response, and the Trace File, which is a time-stamped keystroke 
log. These are three separate systems, right? How do they talk 
to each other, or do they?
    Mr. Thompson. That is one of the next steps in our process, 
is to put together a method for making these systems talk to 
each other. However, I have to say that we are continually 
revising the way in which we analyze the data from our Unified 
Tracking System to provide more and more useful information to 
our field managers.
    Mr. Farenthold. Great. It is also my understanding that 
regional offices are responsible for both data collection and 
quality control, and they often have conflicting objectives. 
Most Census Bureau employees are evaluated, at least in part, 
on survey response rates. The Census Bureau can minimize a 
potential for conflict of interest by separating the interview 
from the regional chain of command, thus allowing quality 
control to function independently. It is my understanding that 
you all have started, in July, a pilot program where there is a 
re-interview process that comes out of your Jeffersonville 
connect center, rather than the regional offices. Do you think 
this initiative has ben successful so far? Can you give us an 
idea how it is working?
    Mr. Thompson. Certainly. We have already moved two of our 
regional offices to the Jeffersonville facility where a totally 
independent staff will do the telephone interviewing. And by 
July, I am sorry, by April 15, by April, this coming April, we 
will have moved all the regional offices to our Jeffersonville 
facility.
    Mr. Farenthold. And have you run into any problems or is it 
working out pretty well?
    Mr. Thompson. It has been working very well.
    Mr. Farenthold. Great. Great. One of the committee's 
witnesses reports that they have faced retaliation after she 
cooperated with the committee's investigation. Can we have your 
commitment that you will work with our staff to ensure that 
Bureau employees are not retaliated for whistleblowing and 
cooperating with Congress?
    Mr. Thompson. Certainly, Congressman.
    Mr. Farenthold. All right. We had a hearing the other day 
in the full committee on the difficulties that some 
whistleblowers face, and this committee is almost unanimous in 
believing that whistleblowers need the highest level of 
protection, that they are our partners in being watchdogs.
    With that, I will go on and let Mr. Lynch have his 
questions, and I am going to check to make sure we have gotten 
everything I need to get covered as well. We will go to Mr. 
Lynch now.
    Mr. Lynch. All right, thank you, Mr. Chairman. I just want 
to go back. This was basically the headline just prior to the 
election, where it says the Census faked the 2012 election jobs 
report, the implication being that Census employees falsified 
the records, and their goal was to manipulate the unemployment 
numbers so that President Obama would get re-elected. That was 
basically the conspiracy that they alleged. So I want to just 
drill down on that a little bit. I think that is very 
unfortunate and gives freedom of the press a bad name.
    Mr. Zinser, let's just go back over your report a little 
bit. I just want to straighten the record out. So after 
reviewing over 3,000 pages of documents and conducting more 
than 100 interviews of former and current Census Bureau 
employees, your office found, and this is a quote from your 
report, ``no evidence that management in the Philadelphia 
Regional Office instructed staff to falsify data at any time 
for any reason.`` Is that correct?
    Mr. Zinser. That is correct, sir.
    Mr. Lynch. Okay. And can you explain to me briefly what led 
you to this conclusion?
    Mr. Zinser. Well, we asked employees about two main 
allegations: we asked them whether they were ever instructed to 
falsify data, and none of the employees that we interviewed 
said that they had been so instructed.
    Mr. Lynch. Now, most of the employees, are they newly hired 
since President Obama took office, or have they been there a 
while?
    Mr. Zinser. I don't know the exact answer to that, but they 
were a cross-section of employees picked at random throughout 
the region.
    Mr. Lynch. Okay.
    Mr. Zinser. And there was no other selective factor there 
in terms of how long they had been on staff.
    Mr. Lynch. Okay, good enough.
    Mr. Zinser. The other issue that we asked them is whether 
they had any concerns about their completed surveys being 
altered by their supervisors, and none indicated that they had 
such concerns.
    Mr. Lynch. Okay. And then you checked with the managers to 
see if there was any changes implemented by them?
    Mr. Zinser. Yes, sir. There were three managers who were 
essentially subjects of the investigation. We did interview 
each of them; they cooperated with our investigation. They 
denied any efforts to instruct employees to change surveys. 
They denied that they had ever changed or altered surveys 
themselves.
    Mr. Lynch. Okay. You also indicated in your report, 
contrary to The New York Post allegations, that there was no 
evidence that any of this data was used to manipulate the 
unemployment rate leading up to the election.
    Mr. Zinser. Yes, sir. We went into the investigation 
understanding that theoretically it could be possible to 
manipulate the unemployment rate.
    Mr. Lynch. Let's talk about that a little bit. What would 
have to happen in order for that number to change? I understand 
it is broad-based data and the indicia of unemployment is sort 
of a blended number. What would be required for manipulation to 
actually happen?
    Mr. Zinser. Well, actually, the Census Bureau did an 
analysis and then our staff evaluated that, and basically the 
average workload of a CPS field representative or field 
representative that works on the CPS, the average workload is 
30 cases. So if the unemployment rate is 8.1 or 8 percent, that 
means, of those 30 cases, 2.4 of those cases you are going to 
find somebody who is unemployed, 2.4 out of the 30. So in order 
to change the unemployment rate by just .1 percent, it would 
take 26 field representatives changing all of their unemployed 
cases to employed. And then in order to get a .3 percent 
decline in the unemployment rate, you would multiply the 26 
times 3 and you would come up with 78 field representatives.
    Mr. Lynch. Okay. And that is what we had there, right? At 
that time all the indicators were the same, right?
    Mr. Zinser. Yes, sir.
    Mr. Lynch. Well, they were all consistent. I won't say they 
were the same, but they were all consistent that there was a 
drop in unemployment.
    Mr. Zinser. Yes. There was a drop from 8.1 percent to 7.8 
percent.
    Mr. Lynch. Okay. All right. I see my time has expired and I 
will yield back.
    Thank you.
    Mr. Farenthold. Thank you very much.
    I have a couple more questions I will do, then we will go 
back to Mr. Clay when he gets back.
    Mr. Thompson, is there any computer management or 
electronic falsification screening? For example, in the 
Consumer Population Survey, households are in for four months, 
out for eight, and back in for another four. Does any screening 
occur automatically to identify inconsistencies over the period 
of the households in the survey? Do you want to talk about any 
other automated data integrity systems you have in place?
    Mr. Thompson. The systematic processes that we use right 
now are preparing reports from our Unified Tracking System that 
are designed to identify anomalies that we can look at. We are 
working aggressively to put together more of a data analytics 
team that will then allow for really a more systematic way of 
doing this.
    Mr. Farenthold. Great.
    Mr. Zinser, we have heard testimony in other hearings about 
inspectors general having problems getting their job done and 
being blocked. Your testimony tended to indicate that you had 
pretty good cooperation. Did you run into any roadblocks in 
your investigation or feel like there were folks not 
cooperating with your investigation?
    Mr. Zinser. No, sir, we didn't have problems with 
cooperation. Early on, and I think the staff report kind of 
points out that the General Counsel's Office of the department 
did get involved in the investigation and we did make sure that 
our investigation was completely independent of anything that 
office was doing with respect to the committee's oversight.
    Mr. Farenthold. Mr. Thompson, we didn't have quite as good 
of an experience, or at least the committee staff reported to 
me that despite the Census Bureau having its own legislative 
affairs staff and lawyers that ordinarily handle the Bureau's 
engagements with Congress and this committee, in this case the 
Commerce Department stepped in and assigned its own staff to 
manage the congressional investigation. Their posture toward 
the committee's investigation, according to committee staff, 
was confrontational from the onset. The pace of the committee's 
investigation was slowed because Commerce Department officials 
slow-rolled document productions and interfered with witness 
interviews.
    Did you or your predecessor request the Department of 
Commerce to manage the response to the committee's 
investigation?
    Mr. Thompson. Congressman, we always work closely with our 
colleagues at the Department of Commerce. In fact, our 
attorneys administratively do report to the Office of General 
counsel to ensure consistency. So we basically followed the 
procedures that were in place for responding to the 
subcommittee.
    Mr. Farenthold. So you are saying it is standard practice 
for the Department of Commerce staff to take over management of 
these types of inquiries? Was it a takeover or was it just 
cooperation?
    Mr. Thompson. It was cooperation, it wasn't a takeover. We 
have a very good relationship with the Department of Commerce.
    Mr. Farenthold. And did the Department of Commerce tell you 
why they jumped in on this one more than they had in the past, 
at least in dealing with us?
    Mr. Thompson. I didn't have conversations with them about 
anything like that.
    Mr. Farenthold. All right. And the Department didn't 
express any concerns with your legislative affairs folks and 
them handling it, did they?
    Mr. Thompson. No.
    Mr. Farenthold. All right. Well, I was just kind of curious 
why they jumped in on this one.
    All right, I see Mr. Clay is available now. We will give 
him his first round of questions and then give Mr. Lynch his 
second, if he has some more.
    Mr. Clay. Thank you, Mr. Chairman.
    I want to thank Director Thompson and Mr. Zinser for being 
here today.
    However, Mr. Chairman, I am just kind of bewildered on how 
and why we are at this point. As the ranking member stated 
earlier, I guess this inquiry started from a November 18, 2013 
New York Post article, and it seems to me, it appears as if 
quality control may be needed at The New York Post. Clearly, 
the information contained in the article was not reliable, and 
I see that some of the history of how we got to this point was 
in response to that Post article.
    On November the 19th, 2013, Chairman Issa, you, Mr. 
Chairman, and Kevin Brady sent a letter to Director Thompson 
seeking documents related to possible employee data 
falsification in the CPS, and in response to that request the 
Bureau has produced over 4800 pages of documents and the 
committee has conducted six transcribed interviews with current 
and former Census Bureau employees.
    I did hear you say earlier in this hearing that this is 
good news, so I am just curious as to how we got to this point 
off of an unreliable New York Post article.
    Mr. Farenthold. If the gentleman would yield.
    Mr. Clay. I yield.
    Mr. Farenthold. As I did point out, we found that the 
problem was not nearly as bad as The New York Post suggested, 
but I think we are having this hearing to ensure that some of 
the reforms from the inspector general's report and the result 
of this investigation are going to be implemented. It is our 
duty to conduct rigorous oversight, and, as I said at the 
onset, I am glad that it didn't turn out to be as bad as we all 
thought it did. It is actually pleasurable for me to have a 
good news hearing, and I do think, for the most part, this is a 
good news hearing.
    Mr. Clay. And that is a good thing, because I think the 
people at the Census Bureau work awfully hard to get it right, 
to supply this Government and the American people with the data 
necessary to make good decisions.
    Over the past year we have heard a number of allegations 
against the Census Bureau as it relates to a potential data 
falsification scandal in the Philadelphia Regional Office. 
However, let's set the record straight. There was no scandal 
here. The IG conducted what I think we would all agree was a 
very thorough investigation and the allegations were found to 
be without merit. And after reviewing over 3,000 pages of 
documents and conducting more than 100 interviews of former and 
current Census Bureau employees, the IG found no evidence that 
management in the Philadelphia Regional Office instructed staff 
to falsify data at any time, for any reason.
    Is that correct, Mr. Zinser?
    Mr. Zinser. Yes, sir, it is.
    Mr. Clay. And can you please explain what led you to that 
conclusion?
    Mr. Zinser. Yes, sir. We followed our investigative plan, 
and that included interviewing current and former employees, it 
included interviewing the managers who the complainants had 
pointed to as instructing them to do this. The managers 
actually submitted to polygraph examinations, as well. We also 
looked at the actual computer files with respect to an analysis 
of whether any changes had been made to any of the files, and 
we did not find any evidence of any alteration of the survey 
results.
    Mr. Clay. And in your investigation did you find any 
evidence that management changed survey responses or covered up 
falsification?
    Mr. Zinser. No, sir, we didn't. As I mentioned, we did go 
into the computer systems and looked at the trace files, which 
are actually audit trails, to see the activity of the 
supervisors, and we did not find any occasions where results 
had been altered.
    Mr. Clay. I thank you for your response.
    I see my time has expired. Thank you, Mr. Chairman.
    Mr. Farenthold. Thank you, Mr. Clay.
    Mr. Lynch?
    Mr. Lynch. Thank you, Mr. Chairman.
    It is unfortunate, as my friend from Missouri has pointed 
out, that a news report would lead us to this point, but 
separate and apart, I think, as the chairman has noted, this is 
a good news hearing, and I think it was important to lay this 
all out because there has been a steady drumbeat of criticism 
for Government employees and agencies. Government employees, in 
the last several years, have endured furloughs; they had a 
three-year pay freeze; the pension contributions for all these 
Federal employees have been increased, so they are paying more 
for their pensions and getting less at the end of it. But it is 
very important to make sure that people understand that these 
reports were baseless. So the good reputation of the Census 
employees involved in these cases were sullied because of the 
allegations made.
    We have done a thorough investigation, congressionally and 
through our inspectors general, and the claims against these 
employees were completely baseless. So I apologize to those 
Census employees that had to endure this and I would just 
caution that sometimes the environment in which Federal 
employees have to work is hostile to their morale and also to 
the performance of their duties.
    So I guess my confidence in the employees of the Census is 
reaffirmed. I think they have performed exceedingly well their 
responsibilities, even during the time of these allegations. 
They have done a good job. Our inspectors general have done a 
commendable job, as well, to be thorough in their analysis, and 
I think that the recommendations are the best thing to come out 
of this, other than absolving the Census Bureau of any blame 
here. I think the recommendations are sound, I think it will 
end up allowing us to really have greater confidence than we 
had before and eliminate any possibility that there might be 
manipulation in the future.
    So I appreciate it, Mr. Chairman. I thank you for your 
indulgence and thank you for holding this hearing.
    Mr. Farenthold. And thank you, Mr. Lynch.
    Mr. Clay, did you have any more questions?
    Mr. Clay. I do not, Mr. Chairman.
    Mr. Farenthold. All right.
    While I agree almost completely with Mr. Lynch, I do want 
to point out that this investigation was not a waste of time; 
we got some good results from it. We learned that there are 
some potential problems that need to be addressed in training, 
in implementing management issues. I think we made a good step 
by having a completely different division doing the call-backs 
for data security. We are well on the way to improving our 
computer system, so I certainly don't think it is a waste of 
time.
    Mr. Lynch. Mr. Chairman, briefly. I neglected to offer the 
opening statement of Mr. Issa, our full committee ranking 
member, and I would like to offer that for the record.
    Mr. Farenthold. Absolutely.
    Mr. Lynch. Okay, thank you.
    Mr. Farenthold. The ranking member.
    Mr. Lynch. Mr. Cummings, right. What did I say?
    [Laughter.]
    Mr. Lynch. I wish he was the ranking member.
    Mr. Farenthold. Wishful thinking on your side, I guess.
    We are happy to have Mr. Cummings as the ranking member. 
So, without objection, this will be entered into the record.
    Mr. Farenthold. I would like to thank our witnesses for 
taking time to be with us and for your hard work for the 
hardworking American taxpayers.
    We are adjourned.
    [Whereupon, at 3:03 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] 

                                 <all>
</pre></body></html>
